Table of Contents

Strategic Plan Framework ………………………………………………………..1


Introduction...................................................................................................... 2


Mission and Vision........................................................................................... 3


CORE Values ................................................................................................... 5


Strategic Outlook.............................................................................................. 7


OIG Strategic Goals and Strategic Objectives .................................................. 12

   Tree Diagram of OIG Strategic Goals and Objectives ..........................................................13

Resource Management ................................................................................... 18

   Human Capital ……………………………………………………………………………… 19
   Information Technology Management and Security ….…………………………….............22
   Quality, Risk Management, and Process Improvement …………………………………….23

Relationship of Strategic Goals to Annual Performance Goals………………….26


External Factors ............................................................................................. 27


Program Evaluations....................................................................................... 29


Appendix – Relationship of Audit and Evaluation Planning by
  Directorate to FDIC and OIG Strategic Goals and Objectives
  and Management Challenges ……...………………………………………..31
                             FDIC Office of Inspector General
                                Strategic Plan Framework
    VISION                                             (2004-2008)


                                                       VISION
                    The agency and Congress see us as a valuable part of the Corporation
                          and we are viewed as one of the best OIGs in government.

                                                   MISSION
       The Office of Inspector General promotes the economy, efficiency, and effectiveness of FDIC
      programs and operations, and protects against fraud, waste, and abuse, to assist and augment
     the FDIC’s contribution to the stability of, and public confidence in, the nation’s financial system.

                                           STRATEGIC GOALS


Value and Impact                 Communication                       Human Capital                 Productivity
                                 and Outreach
OIG products will add                                                The OIG will align            The OIG will
value by achieving               Communications                      its human                     effectively
significant impact               between the OIG and                 resources to                  manage its
related to addressing            the Chairman, the                   support the OIG               resources
issues of importance             Congress,                           mission
to the Chairman, the             employees, and other
Congress, and the                stakeholders will be
public                           effective



                                       STRATEGIC OBJECTIVES


    OIG will contribute to           OIG will foster                     OIG will enhance:             OIG will ensure:
       ensuring the:                   effective:

•      Protection of             •   Agency relations                •     Workforce
                                                                                                   •     OIG
       insured depositors            and                                   analysis and
                                                                                                         processes are
                                     communications                        planning                      efficient
•      Safety and
       soundness of              •   Congressional                   •     Competency
                                                                                                   •     OIG products
       FDIC-supervised               relations and                         investments
                                                                                                         meet quality
       institutions                  communications                                                      standards
                                                                     •     Leadership
•      Protection of             •   OIG employee                          development
       consumer rights               relations and
                                     communications                  •     The
•      Achievement of                                                      development of
       recovery to               •   Relations and                         a results-
       creditors of                  communications                        oriented high
       receiverships                 with other OIG                        performance
                                     stakeholders                          culture
•      Effective
       management of
       agency resources



                                               CORE VALUES
             Communication                                                                Excellence
                                Objectivity               1    Responsibility
Introduction

The Government Performance and Results Act of 1993 (Results Act or GPRA) was enacted to
improve the management, effectiveness, and accountability of federal programs. The Results
Act requires most federal agencies, including the Federal Deposit Insurance Corporation (FDIC),
to develop a strategic plan that broadly defines the agency’s mission and vision, an annual
performance plan that translates the vision and goals of the strategic plan into measurable
objectives, and an annual performance report that compares actual results against planned goals.

The FDIC Office of Inspector General (OIG) strongly supports the Results Act and is fully
committed to applying its principles of strategic planning and performance measurement and
reporting to our operations. Doing so will enable us to demonstrate that we are providing value
to the Corporation and will help identify where changes are needed to improve organizational
effectiveness and efficiency. This strategic plan lays the foundation for establishing goals,
measuring performance, and reporting accomplishments consistent with the principles and
concepts of the Results Act and serves as the basis for the annual planning process in the OIG.

Our strategic plan sets forth the broad goals and objectives for implementing the OIG’s mission
of promoting economy, efficiency, and effectiveness, and protecting against fraud, waste, and
abuse in FDIC programs and activities over the next 5 years. The plan focuses on long-term
goals and objectives related to providing products that add value to Corporation programs and
operations. It also focuses on maintaining effective external communications with stakeholders,
aligning human resources to support the OIG mission, and effectively managing our resources.
Our strategic plan also includes a description of the means, strategies, and resources that will be
needed to achieve our goals and objectives, and identifies key external factors that could affect
our ability to accomplish the stated goals.

The OIG recognizes that strategic planning supported by performance goal setting and
measurement is an ongoing and evolutionary process that requires continuous monitoring. We
further recognize the importance of results-oriented goals and alignment with the Corporation’s
strategic goals and objectives. Accordingly, we continually reevaluate our strategic and
performance plans and goals to ensure consistency with the objectives of the Results Act in
concert with the IG Act and the Corporation’s goals.




                                                 2
Mission and Vision

OIG Mission

Federal OIGs have responsibility to report on current performance and accountability and to
foster good program management to ensure effective government operations. The Inspector
General Act of 1978, as amended, created the OIGs to:1

      •    Conduct, supervise and coordinate audits and investigations relating to the programs and
           operations of their agencies;
      •    Review existing and proposed legislation and regulations to make recommendations
           concerning the impact of such legislation and regulations on economy and efficiency or
           the prevention and detection of fraud and abuse;
      •    Provide leadership for activities designed to promote economy, efficiency, and
           effectiveness, and to promote efforts to reduce fraud, waste, and abuse in the programs
           and operations of their agencies;
      •    Coordinate relationships between the agency and other Federal agencies, State and local
           government agencies, and non-government agencies to promote economy and efficiency,
           to prevent and detect fraud and abuse, or to identify and prosecute participants engaged in
           fraud or abuse;
      •    Inform their agency heads and Congress of problems in their agencies’ programs and
           operations and the necessity fo r and progress of corrective actions; and
      •    Report to the Attorney General whenever the Inspector General has reasonable grounds
           to believe there has been a violation of Federal criminal law.

In addition to audits and investigations referenced in the first item above, OIGs may conduct,
supervise, and coordinate inspections and evaluations, and other reviews related to the programs
and operations of their agencies.


                                       Our Mission Statement

The Office of Inspector General promotes the economy, efficiency, and

effectiveness of FDIC programs and operations, and protects against fraud, waste,

and abuse, to assist and augment the FDIC’s contribution to the stability of, and

public confidence in, the nation’s financial system.



1
    IG Act, Section 2 and Section 4.
                                                    3
                           Our Vision Statement

The agency and Congress see us as a valuable part of the Corporation and we are

viewed as one of the best OIGs in government.




                                       4
CORE Values

The OIG has adopted the following “CORE” values to guide us in achieving our mission, goals,
and objectives:


  Communication. The OIG strives for an environment of open and honest
  communication both among our people and with our customers and stakeho lders. We
  listen to, learn from, and collaborate with our employees and stakeholders. We will build
  responsive and constructive relationships with corporate officials based on a shared
  commitment to improving program and operational effectiveness.

  Objectivity. The OIG will maintain personal, external, and organizational independence
  so that our opinions, conclusions, and recommendations will be impartial and will be
  viewed as impartial by knowledgeable third parties. We will exercise objective and
  unbiased judgement on all issues associated with conducting and reporting on our work.

  Responsibility. The OIG works toward ensuring that all employees have a clear
  understanding of what is expected of them. We believe that each individual is responsible
  and accountable for his or her actions and should be mindful that these actions always
  reflect on our customers’ perception of the OIG. We respect all of our employees because
  they are important, trusted, and the key to continued improvement of our services to all
  customers.

  Excellence. The OIG’s products and services must always be of the highest quality.
  They are defined by their accuracy, fairness, and usefulness to our customers. The OIG
  acknowledges that growth and vision are crucial to the success of our office. We must
  learn from the past and anticipate and prepare for the future. We are committed to taking
  actions, whenever necessary, to adapt to a changing environment in order to achieve and
  maintain the level of excellence expected of us by our customers.



The OIG also embraces the Corporation’s core values that follow:

Financial Stewardship. The FDIC is committed to being a responsible fiduciary in its efforts to
provide insured institutions the best value for their contributions to the ins urance funds.

Effectiveness. The FDIC’s reputation rests on its professionalism, its adherence to the highest
ethical standards, and its skilled and dedicated workforce.

Responsiveness. The FDIC strives to respond rapidly, innovatively and effectively to risks to the
financial system. It works effectively with other federal and state supervisors to achieve
consistency in policy and regulation. It seeks and considers information from the Congress, the
financial institution industry, individuals seeking and receiving financial services, and others
                                                5
outside the FDIC in the development of policy. The FDIC seeks to minimize regulatory burden
while fulfilling its statutory responsibilities.

Teamwork. The FDIC promotes and reinforces a corporate perspective and challenges its
employees to work cooperatively across internal and external organizational boundaries.
Fairness. The FDIC strives to treat everyone fairly and equitably. It exercises its
responsibilities with care and impartiality; promotes a work environment that is free of
discrimination and values diversity; and adheres to equal opportunity standards.
Service. The FDIC’s long and continuing tradition of public service is supported and sustained
by a highly skilled and diverse workforce that responds rapidly and successfully to changes.
Integrity. The FDIC strives to perform its work with the highest sense of integrity, requiring the
agency to be, among other things, honest and fair. The FDIC can accommodate the honest
difference of opinion; it cannot accommodate the compromise of principle. Integrity is measured
in terms of what is right and just, standards to which the FDIC is committed.




                                                6
Strategic Outlook
This section summarizes the OIG’s strategic outlook as we continue to strive to achieve our
mission through accomplishment of our strategic goals and objectives.

Corporate Environment and Management Challenges at the FDIC

Corporate Environment

The strategic outlook for the OIG, established within the corporate environment, must
necessarily give primary consideration to the challenges that the Corporation will face now and
in the future in meeting its mission. Accordingly, the OIG must continually evaluate major
corporate challenges and issues in order to identify corporate vulnerabilities (to fraud, abuse, and
inefficient, uneconomical and ineffective activities) that we must address to meet our mission
under the Inspector General Act.

In February 2002 at an Executive Leadership Conference, FDIC Chairman Donald Powell
announced a new vision for the Corporation. He envisions the FDIC providing timelier and
better banking-related information than anyone else; recognizing and responding to emerging
risks before they threaten safety and soundness or harm consumers; and becoming the authority
and resource that the Congress, media, and others turn to for guidance. The OIG fully supports
that vision for the Corporation and will do all it can, in partnership with the Corporation, other
financial regulatory agencies, and the Inspector General community, to help make it a reality.

The Chairman has also developed annual corporate performance objectives to accomplish the
Chairman’s vision. These performance objectives included a reorganization during 2002 that
continued into 2003 with a reduction- in- force that resulted in a streamlined but more agile and
efficient workforce of the FDIC. The Chairman is further challenging his executive team with a
leadership agenda that includes additional corporate and division/business line initiatives in the
areas of policy leadership, management of the insurance funds, and stewardship. These
initiatives, together with the performance measures under the FDIC’s GPRA performance plans,
are serving to foster an environment of accomplishment and a renewed focus on results.

Management and Performance Challenges Facing the FDIC

In the interest of improving federal performance government-wide, the Senate Governmental
Affairs Committee has asked Offices of Inspector General to annually identify the most
significant management challenges facing their agencies. At the FDIC, our office has identified
and reported these challenges to the Chairman, the Congress, and others through our Semiannual
Reports to the Congress. In addition, the Reports Consolidation Act of 2000 (RCA) provides
that an agency producing a consolidated performance and accountability report will include a
statement prepared by the agency’s Inspector General that summarizes the most serious
management and performance challenges facing the agency. Beginning in 2002, the FDIC
decided to prepare a consolidated performance and accountability report consistent with the
RCA. This report consolidates the FDIC’s Chief Financial Officers Act Report, the Program
Performance Report, and the traditional Annual Report. In the spirit of the RCA, the Inspector
General provides for inclusion in the consolidated report an annual statement that identifies the
most serious management and performance challenges facing the Corporation. For the 2003
                                                 7
FDIC consolidated report, the OIG identified management and performance challenges in the
following areas.

   •   Adequacy of Corporate Governance in Insured Depository Institutions
   •   Protection of Consumer Interests
   •   Management and Analysis of Risks to the Insurance Funds
   •   Effectiveness of Resolution and Receivership Activities
   •   Management and Security of Information Technology Resources
   •   Security of Critical Infrastructure
   •   Management of Major Projects
   •   Assessment of Corporate Performance
   •   Organizational Leadership and Management of Human Capital
   •   Cost Containment and Procurement Integrity

The OIG will continue to evaluate and annually update the challenges and will pursue audits,
evaluations, investigations, and other reviews that address these challenges and related corporate
risks. Although the most serious management and performance challenges may change during
the period covered by this strategic plan, we believe many of the above-listed issue areas will
continue to present challenges to management into the foreseeable future.

OIG Strategic Challenges and Strategies

The OIG is faced with the challenge of designing audit, evaluation and investigation strategies
which provide the highest value, or greatest return, in identifying and minimizing the
vulnerabilities and risks the Corporation faces as it addresses its formidable challenges. As the
Corporation identifies its priorities and develops strategies to operate into the future, the OIG
recognizes it must stay abreast of changes and reevaluate its priorities and strategies in light of
the Corporation’s needs.

Audit and Evaluation Strategies

The Office of Audits develops and issues annual Assignment Plans which present projects
designed to help the FDIC successfully address risks, meet its many challenges, and accomplish
its strategic goals. The plan provides a key mechanism to assist the OIG in achieving its first
strategic goal (value and impact): OIG products will add value by achieving significant impact
related to addressing issues of importance to the Chairman, the Congress, and the public.

The audit assignment plan is based on OIG’s assessment of risks to the FDIC in meeting its
strategic goals and objectives, consistent with the Chairman’s priorities. This risk assessment
process is linked to OIG’s identification of management and performance challenges, as
discussed above. This planning process is coordinated with the FDIC Audit Committee and
senior FDIC management. Reports and products issued under the assignment plan are intended
to produce constructive recommendations for improving programs and activities, and achieve
economies and efficiencies in operations. As such, we believe the projects will enhance FDIC
corporate governance and contribute to the Corporation’s overall risk management activities.

The Office of Audits also maintains flexibility in its assignment planning to meet the changing
needs of the Corporation. In keeping with the OIG’s commitment to perform assignments that
                                                  8
are meaningful to the Corporation and that address corporate risks, the Office of Audits will be
mindful of the “next best audit to perform” to ensure that all assignments meet identified and
emerging risks. To this end, during the fiscal year, higher priority assignments may be
substituted for those provided in the assignment plan, as appropriate.

Audit and evaluation work addresses the Corporation's three principal operational areas as
discussed in the FDIC Strategic Plan – Insurance, Supervision, and Receivership Management.
Our work also addresses a fourth area of corporate attention discussed in the FDIC Strategic
Plan – Resource Management. This includes the FDIC’s human, financial, and technological
resources essential to the successful accomplishment of the Corporation’s mission and its annual
performance goals.

The Office of Audits manages its audit and evaluation activity through the following five
operating directorates:

•   Insurance, Supervision, and Consumer Affairs
•   Resolution, Receivership, and Legal Affairs
•   Information Assurance
•   Resource Management
•   Corporate Evaluations (Corporate-wide reviews that crosscut corporate operational areas)

The Appendix depicts how audit and evaluation planning by OA Directorate relates to the OIG
and FDIC strategic goals and objectives, as well as the management and performance challenges
facing the FDIC. The table reflects a comprehensive approach to addressing FDIC strategic
goals, risks, and management and performance challenges. All challenges and risks cannot be
addressed each year but should be addressed over the multi- year period covered by this plan.

Investigative Strategies

OIG investigative strategies and initiatives will add value to the Corporation’s programs and
operations by identifying and investigating instances of fraud, waste, and abuse and other
conduct leading to criminal, civil, and administrative penalties and recoveries. Several key
investigative strategies and initiatives are discussed below.

•   Solvent/Insolvent Banks – OIG continues to work closely with U.S. Attorney’s Offices, the
    FBI, and FDIC’s Division of Supervision and Consumer Protection (DSC) in addressing
    fraud at open and failed institutions. As federal law enforcement resources have had to be
    redirected to terrorism investigations, U.S. Attorneys’ Offices and the FBI are increasingly
    seeking OIG assistance in pursuing investigations of fraud at open and failed institutions. In
    addition to criminal prosecutions stemming from its investigations at open and failed
    institutions, OIG has been working with FDIC Legal and DSC to incorporate appropriate
    enforcement actions in the plea bargaining process, to prohibit offenders from future
    participation in banking.

•   Communication with DSC – OIG communicates on an ongoing basis with DSC on matters
    relating to investigations of fraud at both open and closed institutions. Our relationship with
    DSC with respect to these cases has become increasingly collaborative; as we work together
    to aggressively combat fraud and obstruction that harm FDIC regulated and/or insured
                                                 9
institutions. To this end, we meet routinely with DSC officials. In addition to quarterly
meetings with DSC’s Special Activities Section in Washington, OIG representatives make
regular visits to DSC regional and area offices to hold meetings with DSC managers. On
average we visit two offices a quarter, with a goal of visiting all eight offices each year.
During these meetings, we review our ongoing cases involving open and closed institutions
and discuss issues of mutual concern. In addition to these management meetings, OIG agents
have been making presentations to DSC staff at various field offices, to provide an overview
of our Office of Investigations operations and address our role in investigating financial
institution fraud. OIG continues to work with DSC and other FDIC program offices in
developing and presenting training on “lessons learned” from our cases that may provide
insight into bank failures and red flags of fraud at financial institutions.

In addition, OIG issues quarterly reports to DSC officials outlining the status of
investigations involving open and failed institutions. At the conclusion of these cases, we
also issue memorandum reports to DSC outlining the results of the investigation. As actions
of significance occur in our cases, we provide DSC with relevant highlight reports, copies of
indictments, and relevant press releases and news articles. Working collaboratively, OIG and
DSC has issued a revised agreement relating to our investigations at open institutions, under
which DSC now notifies OIG of the filing of certain Suspicious Activity Reports.

Cooperative Efforts with DRR/Legal – OIG continues to coordinate closely with the FDIC’s
Division of Resolutions and Receiverships (DRR) and the Legal Division to address
fraudulent concealment of assets by those who have been ordered to pay FDIC restitution.
Under protocol established between our offices, OIG will undertake a criminal investigation
when DRR/Legal finds evidence that an individual has concealed or fraudulently transferred
assets to avoid payment of restitution to FDIC. OIG and DRR worked together to issue new
guidelines outlining our respective roles at bank closings. OIG continues to attend all bank
closings where fraud is suspected and to coordinate with DRR before, during and after the
closing. The new guidelines are designed to preserve evidence for criminal prosecution
purposes while enabling DRR to access and protect records necessary for resolution of the
institution. OIG continues to hold quarterly meetings with DRR/Legal Headquarters officials
and meets periodically with DRR managers in Dallas. We also issue quarterly reports to
DRR and Legal officials outlining our investigations related to failed institutions, asset
concealment, and fraud in the sale of assets. As significant actions occur in these cases, we
provide DRR with relevant highlight reports, copies of indictments, and related press releases
and news articles. We also forward all judgment orders stemming from our cases to DRR for
their use in collecting court-ordered restitution. OIG has also been working with DRR and
other FDIC officials in identifying red flags and patterns of fraud found in failed bank
institutions. For instance, we recently participated on a team that developed a paper on the
“Root Causes of Bank Failures from 1997 to Present,” for a symposium DRR is sponsoring
on “Why Banks Fail.” Our agents also make periodic presentations to DRR and Legal staff
outlining “lessons learned” from our bank failure investigations.

Electronic Crimes Team – As computers continue to become a major part of the business
operational environment, the risk of electronic-related fraud has increased. The OIG is
committed to meeting the needs of FDIC and the banking community to combat electronic
fraud. As a result, the OIG established an Electronic Crimes Team (ECT) and computer
forensic laboratory, housed in Washington, DC, to investigate unauthorized computer
intrusions, computer-related fraud impacting FDIC operations, and to provide computer
                                            10
   forensic support to OIG investigations. ECT coordinates with DIRM, and affected FDIC
   program offices in investigating computer-related crimes. In providing computer forensic
   support to OIG investigations, the ECT prepares search warrants for electronic media,
   provides on site support for serving such warrants, conducts laboratory analysis of the
   evidentiary content of electronic media seized during criminal investigations, and provides
   technical advice when computer media are used to perpetrate traditional crimes. The ECT
   also attends all bank closings where fraud is suspected, and images computer data for
   evidentiary purposes in resultant criminal prosecutions. The ECT also shares copies of the
   imaged files with FDIC for their use in resolving the institution and pursuing bond claims.
   The ECT has also been assisting DRR/Legal as they research the feasibility of creating
   imaging capability of their own. OIG ECT agents receive intensive training on how to
   search, seize, and analyze computer systems and evidence encountered during the course of
   an investigation and during execution of search warrants. The ECT has made training
   presentations to FDIC staff at various conferences and meetings to make them aware of the
   ECT capabilities and to outline procedures that should be followed to preserve computer
   evidence. The ECT also worked with DRR in developing guidelines to be followed at bank
   closings for the purpose of preserving evidence. The ECT attends meetings with closing
   team members in advance of scheduled bank closings, to review the bank’s computer
   configuration and reach agreement on how to proceed with securing data at the closing.

Resource Management and Mission Support Strategies

Achieving audit, evaluation, and investigative strategies requires critical mission support
functions and effective management of human capital, technology, and internal processes.
Resource management and mission support activities and strategies are discussed beginning on
page 18.




                                              11
OIG Strategic Goals and Strategic Objectives

The OIG Strategic Plan focuses on four strategic goals and 15 strategic objectives. The goals
and objectives are presented graphically on the next five pages. Page 13 presents the OIG’s
mission statement and strategic goals in relation to the FDIC’s mission statement and strategic
goals. As portrayed on this page, the OIG’s strategic goals link to and directly support the
FDIC’s strategic goals. Presented separately on pages 14 – 17 are the OIG’s four strategic goals,
which are briefly described below, and the related strategic objectives.

Strategic Goals and Objectives

•   Value and Impact – Strategic Goal 1 focuses on products adding value to the Corporation by
    achieving significant impact related to addressing issues of importance to the Chairman, the
    Congress, and the public.

•   Communication and Outreach – Strategic Goal 2 focuses on fostering effective
    communications and relations with the agency, Congress, OIG employees, and our other
    stakeholders.

•   Human Capital – Strategic Goal 3 focuses on aligning and integrating our human capital
    policies and procedures to support the OIG mission.

•   Productivity – Strategic Goal 4 focuses on effectively managing our resources to improve the
    quality and efficiency of our products and processes

To implement our strategic plan and achieve our strategic goals and objectives, the OIG’s
Annual Performance Plans will establish specific performance indicators and annual goals that
are directly linked to our strategic goals and the related strategic objectives. In recognizing the
dynamic nature of planning and performance measurement, we are committed to the continued
development of performance indicators and goals that better measure the impact and results of
our work.




                                                 12
            Tree Diagram of OIG Strategic Goals and Objectives
                                                 FY 2004-2008

      FDIC Mission Statement                                         OIG Mission Statement



       The FDIC contributes
                                                                  The OIG promotes the economy,
       to stability and public
                                                                  efficiency, and effectiveness of
       confidence in the
                                                                  FDIC programs and operations
       nation’s financial
                                                                  and protects against fraud,
       system
                                                                  waste, and abuse to assist and
                                                                  augment the FDIC’s contribution
                                                                  to the stability of, and public
        FDIC Strategic Goals                                      confidence in the nation’s
                                                                  financial system.

        I. Insured
        depositors are                                               OIG Strategic Goals
        protected from loss
        without recourse to
        taxpayer funding
                                                                  SG 1 Value and Impact – OIG
                                                                  products will add value by
                                            OIG audit,            achieving significant impact
                                            evaluation,           related to addressing issues of
                                            investigation,        importance to the Chairman, the
        II. FDIC-                           communication,        Congress, and the public
        supervised                          and resource
        institutions are safe               management
        and sound                           processes and
                                            activities directly
                                            support the FDIC
                                            mission and           SG 2 Communication and
                                            strategic goals       Outreach – Communications
                                                                  between the OIG and the
        III. Consumers’                                           Chairman, the Congress,
        rights are protected                                      employees, and other
        and FDIC -                                                stakeholders will be effective
        supervised
        institutions invest
        in their
        communities
                                                                  SG 3 Human Capital – The OIG
                                                                  will align its human resources to
                                                                  support the OIG mission

        IV. Recovery to
        creditors of
        receiverships is
        achieved                                                  SG 4 Productivity – The OIG
                                                                  will effectively manage its
                                                                  resources

Note: The FDIC mission statement shown
above is an abbreviated form of the
Corporation’s official mission statement.                  13
OIG                        Related
Strategic Goal 1           Strategic Objectives




                             SO 1.1 – The OIG will
                             contribute to ensuring the
                             protection of insured
                             depositors from loss
                             without recourse to
                             taxpayer funding




                             SO 1.2 – The OIG will
                             contribute to ensuring the
                             safety and soundness of
                             FDIC-supervised
                             institutions
 SG 1 Value and
 Impact – OIG
 products will add
 value by
 achieving                   SO 1.3 – The OIG will
                             contribute to ensuring the
 significant impact          protection of consumers’
 related to                  rights and investment of
 addressing issues           FDIC-supervised
 of importance to            institutions in their
 the Chairman,               communities
 the Congress, and
 the public


                             SO 1.4 – The OIG will
                             contribute to ensuring the
                             achievement of recovery to
                             creditors of receiverships




                             SO 1.5 – The OIG will
                             contribute to ensuring the
                             effective management of
                             agency resources


                      14
OIG                              Related
Strategic Goal 2                 Strategic Objectives




                                   SO 2.1 – Foster effective
                                   agency relations and
                                   communications




                                   SO 2.2 – Foster effective
                                   congressional relations and
  SG 2 Communication
                                   communications
  and Outreach –
  Communications
  between the OIG and the
  Chairman, the Congress,
  employees, and other
  stakeholders will be
  effective
                                   SO 2.3 – Foster effective OIG
                                   employee relations and
                                   communications




                                   SO 2.4 – Foster effective
                                   relations and communications
                                   with other OIG stakeholders




                            15
 OIG                        Related
 Strategic Goal 3           Strategic Objectives



                              SO 3.1 Workforce Analysis
                              and Planning – Develop and
                              implement approaches to
                              assess workforce capability
                              and plan future needs




                              SO 3.2 Competency
                              Investments – Target
                              training, development, and
                              recruiting that will enhance
                              OIG staff competencies for
                              accomplishing OIG strategic
SG 3 Human                    objectives
Capital – The OIG
will align its human
resources to support
the OIG mission
                              SO 3.3 Leadership
                              Development – Use
                              development/training
                              opportunities to enhance
                              desired leadership
                              competencies for current
                              and future OIG leaders




                              SO 3.4 Results -Oriented High
                              Performance Culture –
                              Develop and nurture a diverse
                              and results -oriented
                              performance culture that
                              enables and motivates
                              employees’ performance




                       16
 OIG                       Related
 Strategic Goal 4          Strategic Objectives




                             SO 4.1 – OIG processes are
                             efficient




SG 4 Productivity –
The OIG will
effectively manage
its resources



                             SO 4.2 – OIG products meet
                             quality standards




                      17
Resource Management

The effective management of OIG’s human capital, information technology, and internal
processes is essential for efficiently achieving the OIG’s mission and strategic goals and
objectives. As discussed in this section of the plan, effective management is accomplished by
providing strategic focus in the following areas.

•   Human Capital
•   Information Technology (and Security)
•   Quality, Risk Management, and Internal Process Improvement

The OIG must maintain vital mission support functions in addition to the audit, evaluation, and
investigative functions discussed in the Strategic Outlook section of this plan. Brief descriptions
of the offices providing this critical mission support are presented below.

Office of Counsel

Independent legal services for the OIG, provided by the Counsel to the Inspector General, are a
key activity. Counsel’s services encompass every facet of OIG operations, including performing
research and providing legal advice, counseling, or opinions on audit-, investigative-, and
management-related topics; conducting or assisting with litigation affecting OIG, including
personnel issues; preparing subpoenas, and seeking to enforce them when necessary; reviewing
proposed legislation and regulations affecting FDIC; processing requests under the Freedom of
Information Act or the Privacy Act and any related appeals; and representing and negotiating on
behalf of OIG clients vis-à-vis other officials within the FDIC, other government agencies,
Congress, or other persons outside the FDIC.

Office of Management and Congressional Relations

Effectively managing the OIG’s business activities is essential to OIG operations. The OIG’s
Office of Management and Congressional Relations is responsible for this activity and handles
an assortment of responsibilities associated with budgets and financial management, contract
administration, human resources, employee development and training, coordination of office-
wide policy development and communication, information systems development, and the OIG’s
computer network. This unit also manages OIG’s relations with Congress; responds to
congressional inquiries; coordinates OIG’s review of proposed legislation and draft corporation
policies and procedures; and coordinates the writing and production of the OIG’s semiannual
report to the Congress that is required by the Inspector General Act.

Office of Quality Assurance and Oversight

Ensuring the quality of OIG work is a high priority. The Office of Quality Assurance and
Oversight is responsible for maintaining quality assurance and organizational self assessment
programs for OIG activities; performing external quality assurance reviews of other OIGs;
internal coordination and external oversight of risk management and internal control activities
under the Chief Financial Officers Act and the Federal Managers’ Financial Integrity Act; and

                                                18
internal and external coordination of strategic and performance planning and reporting activities
under the Results Act.

Human Capital

Corporate Environment

The FDIC has been in a downsizing mode for the past 10 years as the work associated with the
banking and thrift crises of the late l980s and 1990s has been largely accomplished. During the
past year, a number of division mergers and reorganizations took place and the Corporation
concluded its 2002 buyout/retirement incentive programs. As of September 30, 2002, the
FDIC’s buyout/retirement incentive programs achieved a reduction of 699 staff and $80 million
projected savings in future operating costs. In total, over the past 10+ years, the workforce
(combined from the FDIC and the Resolution Trust Corporation) has fallen from approximately
23,000 in 1992 to 5,500 as of September 30, 2002. By July 2003, the Corporation has
substantially completed the required downsizing and corrected existing skills imbalances by
carrying out other features of its comprehensive program such as solicitations of interest,
reassignments, retraining, outplacement assistance, and reductions- in-force. As the Corporation
adjusts to a smaller workforce, it must continue to ensure the readiness of its staff to carry out the
corporate mission.

The Corporatio n has predicted that almost 20 percent of FDIC employees will be eligible to
retire within the next 5 years. The Corporation must continue to conserve and replenish the
institutional knowledge and expertise that has guided the organization over the past years.
Hiring and retaining new talent will be important, and having hiring and retention policies that
are fair and inclusive remain a significant component of the corporate diversity plan.

OIG Human Capital Actions and Strategies

The OIG is undergoing a similar shift in the way we perceive our organization and our business
with a smaller, more flexible workforce that is aligned with our mission. The OIG took steps
during 2002 in accord with the Chairman’s vision, including major efforts to streamline our
workforce and work processes. The OIG participated in the Corporation’s early retirement and
buyout program and modified our structure to realign OIG operations with the critical business
lines of the FDIC, geographically as well as functionally. This resulted in the separation of 54
employees, or 25 percent of our April 2002 staff level, and the closure of our San Francisco
office during 2002. The OIG plans to have a permanent staff level of 168 in 2003, compared
with the 215 staff authorized for 2002. As a result, our 2003 corporate budget is 12 percent less
than our 2002 budget.

While restructuring to a smaller workforce, the OIG continues to look to increasing the value of
our people and the performance capacity of the OIG. Therefore, strategically managing our
human capital in a high-performance culture will be a top priority in our organization. The OIG
issued a Human Capital Strategic Plan in 2002, which seeks to align and integrate our human
resource policies and practices with the OIG mission. As shown on the Tree Diagram of OIG
Goals and Objectives on page 13, the alignment of our human resources with our mission is one
of our four strategic goals. Our Human Capital Strategic Plan complements the other strategic
goals by aligning and integrating human resource policies and practices with our business
practices. It also reflects the Chairman’s recent goals of having the right number of people with
                                                 19
the needed skills in the right places. Our human capital plan focuses on four areas that are key to
maximizing the return on our human capital and sustaining a high-performance organization:
workforce analysis; competency investments; leadership development; and a results-oriented,
high-performance culture.

Strengthening our workforce capabilities will be particularly important in the next several years
to prepare and position us for the future in light of our smaller workforce. As part of the Human
Capital Strategic Plan objectives on workforce analysis and competency investments, we are:

•   Preparing inventories of existing workforce knowledge and workforce knowledge needed,
    and identifying gaps in knowledge needed to accomplish future work;
•   Identifying and linking competencies needed for every OIG position and aligning them with
    job descriptions and position selecting factors;
•   Developing strategies for closing the identified workforce knowledge gaps, including
    training, developmental assignments, recruitment and hiring, and contracting;
•   Identifying OIG leadership competencies that are consistent with a results-oriented, high-
    performance culture that effectively manages human capital; and
•   Better aligning performance criteria and expectations and rewards/consequences with
    accomplishing the OIG strategic mission and goals .

Skills Requirements

Reviewing FDIC programs and operations requires a staff with a broad range of knowledge,
skills, and abilities. The OIG staff is comprised of auditors, criminal investigators, attorneys,
program analysts, computer specialists, and administrative personnel. This highly professional
staff holds numerous advanced educational degrees and has attained professional certifications,
including certified public accountants, certified internal auditors, and certified fraud examiners.
To maintain professional proficiency, each of our staff attains an average of about 50 hours of
continuing professional education and training annually. OIG staff must also possess and
maintain the necessary skills and abilities of their respective disciplines in order to meet the
unique objectives and challenges of their assignments. For example:

•   Auditors are required to have knowledge of accounting principles and the methods and
    techniques applicable to government auditing; knowledge of government organizations,
    programs, activities, and functions they are reviewing; knowledge of applicable statutes and
    regulations; and the skills to communicate clearly and effectively, both orally and in writing.
    In addition, depending on the type of audit being conducted, auditors may have to possess
    knowledge of business, finance, and economics and of other agencies’ programs as they
    relate to FDIC’s work, as well as skills in research, statistical sampling, information systems
    auditing, or other specialized skills as needed.

•   Criminal investigators are required to have a thorough and current knowledge of federal
    criminal procedure and laws concerning search and seizure, arrests, advisement of rights,
    surveillance, and the right to privacy - both personal and financial. They should have
    knowledge of accounting principles, be proficient at interviewing and eliciting information
    from all types of sources, and be able to communicate clearly and effectively, both orally and
    in writing. Because of the complex mission of the FDIC, in addition to the traditional skills
    associated with their activities, criminal investigators in the FDIC OIG must have significant
                                                 20
    knowledge of federal bank regulations and the unique accounting principles associated with
    modern financial institution activities. Criminal investigators must be able to react quickly
    and appropriately to changing situations and be able to apply their expertise in use-of- force
    principles, self-defense, and firearms. The OIG has several agents who are trained as
    instructors in defensive tactics and firearms. In addition to their investigative duties, these
    agents provide support and advice to our National Training Officer in administering our
    training program. The OIG also has an Electronic Crimes Team, staffed by agents who have
    been trained and certified as seized computer evidence specialists.

New Skills Requirements

Banking activities related to cyber banking, electronic cash, and other highly technical financial
delivery systems pose increasing risks that may impact the safety and soundness of the banking
industry and, consequently, the deposit insurance funds. In the current technological
environment, the banking industry is far more vulnerable to new types of electronic fraud and is
becoming more globalized. As such, we need to become more adept at combating computer-
related fraud such as identity theft; searching the Internet for banks operating in a fraudulent
manner; and searching computers that have been used in the commission of fraud. The transition
to a “paperless” environment and a greater reliance on automated systems underscores the need
for OIG staff to possess the necessary computer skills and knowledge to audit and investigate
effectively in this type of environment.

Analyzing Existing and Needed Workforce Knowledge and Identifying Gaps

To better analyze existing needed business knowledge and skills, we created the OIG Business
Knowledge Inventory System (BKIS). This inventory system was created by researching other
efforts in the federal government and through input from the entire OIG workforce. BKIS will
enable the OIG to create a valuable database of business knowledge of OIG employees and
determine where knowledge gaps may exist. BKIS was administered to OIG staff in
March/April 2003 and we received responses from 81 percent. We have performed detailed
analyses of the results and will be providing this information to individual offices for each to
identify potential gaps in knowledge. The information is being organized so each office can
electronically review each office component. Offices will then prepare action plans specifying
how to address any knowledge gaps, e.g., formal training, developmental assignments,
recruitment, or contracting.

Integrating Improved Core Competencies into Human Capital System

Consistent with our Human Capital Strategic Plan, OIG has initiated a multi- year project to
integrate improved core competencies into its Human Capital System. The OIG Competencies
Project aims to identify those skills and behaviors that staff members need to contribute to the
overall mission and goals of the OIG. These core competencies then form the basis of an
integrated and strategically aligned human capital system, which includes:

•   Position descriptions
•   Performance management
•   Individual training and development
•   Selection and promotions
                                                 21
•   Organizational development

The OIG Competency Model will enable us to:

•   Align the human resource activities with OIG strategic planning;
•   Replace outdated performance criteria developed years ago;
•   Communicate new performance expectations clearly for every employee;
•   Implement a cornerstone in the Human Capital Strategic Plan around which future efforts;
    including a training curriculum will be developed; and
•   Modernize OIG human resource functions with the best practices of high performance
    organizations in government and the private sector.

Six competencies have been developed that we believe all OIG staff need to contribute
successfully to the OIG mission and goals. These competencies form the basis for expectations
of every OIG employee, including executives.

•   Achieves Results. Assumes responsibility and accountability for achieving results in support
    of the FDIC and OIG missions and goals.
•   Communicates Effectively. Effectively communicates orally and in writing to promote
    mutual understanding, effective decision- making, and information gathering.
•   Demonstrates Teamwork. Builds and maintains inclusive, responsive, and constructive
    working relationships based on mutual respect and a shared commitment to the OIG’s
    mission, values, and goals.
•   Exhibits Technical Competence. Demonstrates the technical knowledge, skills, and abilities
    necessary to effectively carry out the duties and responsibilities of his or her position.
•   Demonstrates Responsibility and Self-development. Takes personal initiative to improve
    individual and organizational performance and promote the OIG’s values and goals, while
    exhibiting high standards of professional and ethical behavior and integrity.
•   Leads Effectively (supervisors only). Creates and maintains a high performance climate
    where all employees are challenged and encouraged to achieve excellence.

Each of these competencies has been further defined with subsidiary criteria describing the types
of performance included under the competency. Full integration of these core competencies into
OIG’s human capital system will help develop a greater results-oriented, high performance
culture and enhance accomplishment of OIG strategic goals and objectives.

Information Technology Management and Security

Corporate Environment

Information technology (IT) continues to play an increasingly greater role in every aspect of the
FDIC mission. As corporate employees carry out the FDIC’s principal business lines of insuring
deposits, examining and supervising financial institutions, and managing receiverships, they rely
on information and corresponding technology as an essential resource. Information and analysis
on banking, financial services, and the economy form the basis for the development of public
policies and promote public understanding and confidence in the nation’s financial system. IT is
a critical resource that must be safeguarded.

                                               22
Accomplishing IT goals efficiently and effectively requires sound IT planning and investment
control processes. The Corporation must constantly evaluate technological advances to ensure
that its operations continue to be efficient and cost-effective and that it is properly positioned to
carry out its mission. Management of IT resources and IT security have been the focus of
several laws, such as the Paperwork Reduction Act, the Government Information Security
Reform Act (GISRA), and most recently, the Federal Information Security Reform Act of 2002
(FISMA). Similar to the requirements of GISRA, under FISMA, each agency is required to
report on the adequacy and effectiveness of information security policies, procedures, and
practices and compliance with information security requirements of FISMA.

The Corporation is working to implement many sound information system security controls, and
to fully integrate these into an entity-wide program. Additionally, efforts to identify sensitive
data, plan for and fund essential security measures, incorporate security requirements in FDIC
contracts, enhance software configuration management, and measure the overall performance of
the information security program need continued attention. In February 2002, the FDIC’s
Information Security Strategic Plan was approved to address these deficiencies. The plan
provides for a sound information security structure and assures the integrity, confidentiality and
availability of corporate information assets by proactively protecting them from unauthorized
access and misuse. Additionally, a new Financial Environment project has been initiated to
analyze the FDIC’s business needs and create a financial environment that can best serve and
support the FDIC in the future.

OIG Environment

The OIG has set a goal to develop an OIG Information Technology (IT) Strategic Plan to guide
internal IT priorities and ensure efficient and secure uses of IT resources within the OIG. The IT
Plan will lay the foundation for identifying, selecting, and using technology to support the goals
and objectives of the Office of Inspector General, especially those goals and objectives detailed
in the OIG’s Strategic Plan and the Human Capital Plan. The OIG IT Plan will be revised and
updated as needed to adapt to changes in office priorities and technology and achieve the best
possible return on investment.

Our overarching IT goal is to better link information technology planning and investment
decisions to program missions and goals, thus helping ensure that OIG managers and staff have
the IT tools and services they require to successfully and productively perform their work. The
OIG IT vision is to enable our managers and staff, through reliable and modern technology, to be
more productive and responsive. To help realize the goal and vision, we will pursue IT solutions
that optimize our effectiveness and efficiency, connectivity, reliability, and security, and serve as
a model organization for employing best practices in managing our IT systems, services and
investments.

Quality, Risk Management, and Process Improvement

The OIG’s value to the FDIC and to the Congress must be based on a foundation of work that is
of the highest quality. Maintaining high standards of quality is essential to achieve the vision,
mission and goals laid out in this strategic plan, consistent with our core values. Ensuring
quality requires an effective program of risk management to effectively assess and address risks
to the OIG and the FDIC. To continue to ensure and enhance our strategic commitment quality

                                                  23
and risk management, we are developing a quality assurance framework and a related enterprise
risk management framework.

These complementary initiatives are designed to ensure that our approach to quality and risk
management is comprehensive, transparent, and based on world class best practices. As a result,
OIG governance will be maintained at the highest level and will incorporate mechanisms for
continual improvement.

Quality Assurance Framework

Corporate governance deficiencies in the private sector and related audit quality failures by the
public accounting profession have been well publicized. Within the federal inspector general
community we have promoted increased attention to audit quality as a key mechanism to prevent
similar problems within the public sector. A key aspect has been our leadership role in the recent
update of the Quality Standards for Federal Offices of Inspector General issued by the
President’s Council on Integrity and Efficiency and the Executive Council on Integrity and
Efficiency. (These councils, established by executive order, coordinate activities within the OIG
community and establish professional standards.)

Building on and incorporating the Inspector General Act and other related laws and standards,
these updated quality standards for federal IGs encompass the broad range of OIG activities and
functio ns and address: ethics, independence and confidentiality; professional standards for
audits, inspections, evaluations, and investigations; internal control standards and activities;
internal and external quality assurance programs including peer reviews strategic and annual
planning and coordination; communicating results of OIG activities; managing human capital;
reviewing legislation and regulations; and receiving and reviewing allegations. Of particular
note, these standards incorporate recent revisions of the Government Auditing Standards (issued
by the Comptroller General of the United States) with which IGs are mandated to comply under
the IG Act. The recent revisions made significant improvements to the independence standard
applicable to audit work.

Consistent with these quality standards, the OIG will develop a quality assurance framework that
will provide a comprehensive documentation of the mechanisms the FDIC OIG has in place to
ensure that OIG work meets the highest level of quality and provides the highest value to the
FDIC and the Congress.

Enterprise Risk Management Framework

Enterprise risk management (ERM) – the process of identifying and analyzing risk from an
integrated, organization-wide perspective – has been circulating and evolving as a business
concept for several years. It is closely related to the Chief Risk Officer (CRO) concept. The
ERM and CRO concepts have gained additional impetus as a result of corporate governance
problems that ha ve arisen in the private sector that led to the recent passage of the Sarbanes-
Oxley Act. Although many organizations are aware of ERM, and various ERM models exist,
there is no single, commonly accepted definition of risk management and no single, generally
accepted framework on how the process should work.

We believe the ERM concept has applicability to public as well as private sector organizations
and we have initiated work to analyze its applicability to the OIG and FDIC environments.
                                                24
During this assessment process, we will evaluate various models including, in particular, a model
currently under development by the Committee of Sponsoring Organizations of the Treadway
Commission (COSO). (COSO is composed of the American Institute of Certified Public
Accountants, the American Accounting Association, Financial Executives International, the
Institute of Internal Auditors, and the Institute of Management Accountants).

Growing out of our assessment, we plan to develop an enterprise risk management framework
for the OIG that will provide an integrated organization-wide, strategic approach to measuring
and managing all of OIG’s risks in order to (1) maximize OIG’s value in relation to risks and (2)
provide reasonable assurance that OIG’s mission and strategic goals and objectives will be
achieved. Because of the interrelationship of OIG risk management and FDIC-wide risk
management, our initiative will necessarily consider the broad FDIC risk management
environment and processes. We expect that the concepts, parameters, and model resulting from
our initiative may be valuable to the Corporation as it continually improves its risk management
programs and practices.




                                               25
Relationship of Strategic Goals to Annual Performance Goals

Under the Results Act, agencies’ strategic plans and goals are to be linked to their annual
performance goals. This linkage is important because it allows Congress and other agency
stakeholders to assess whether an agency is making progress toward achieving its long-term
goals and objectives. To establish this linkage, the OIG’s Annual Performance Plans will
include objective, measurable, and where appropriate, quantifiable annual performance goals that
will help measure progress in meeting our strategic goals and objectives.

In our Annual Performance Plans, each of our annual performance goals will be linked directly
to and support a specific strategic objective, which in turn is linked to and supports a specific
strategic goal. Many of the goals will identify specific numerical target levels of performance to
be achieved during the year. For many of these goals, we will establish similar goals in our
succeeding years’ performance plans that set incrementally increased target levels from the
previous year.

In accordance with the Results Act, we will measure and report on our success or failure in
achieving each annual performance goal in our annual Program Performance Reports. From the
performance reports, our stakeholders, including Congress, can determine the extent to which we
are meeting our strategic goals and objectives. We will also periodically assess the results of our
performance and appropriateness of our performance measures and goals, and make changes, if
warranted, to our long-term goals and objectives.




                                                26
External Factors

The following external factors are beyond the OIG’s control and could significantly affect the
achievement of the goals and objectives in this plan.

Budget

One of the most significant external factors that could affect achievement of our goals is our
budget. Unlike other FDIC divisions and offices, the OIG is subject to the congressional
appropriations process. A significant decrease in our budget would adversely affect the
achievement of our strategic goals and objectives by limiting our ability to review FDIC
programs and activities; respond to allegations of fraud, waste, and abuse; and provide training to
our professional staff.

External Requests

The OIG sometimes has to respond to external requests and requirements beyond that planned
for in our workload and resource estimates. The requests often require immediate response and
shifting of work. Examples include congressional inquiries or requests, Chairman’s and
management’s requests, litigation, Freedom of Information Act and Privacy Act requests, hotline
complaints, or other high priority requests for audits, evaluations, and investigations. These
requests can require substantial amounts of time and resource expenditures, with significant
impact on our planned workload. An increase in external requests above projected levels may
have an adverse effect on meeting our stated goals and objectives.

Resolution of Failing Financial Institutions

Uncertainties in the environment in which financial institutions operate present a challenge to
planning OIG resources and activities. The financial institution environment evolves rapidly,
particularly with the acceleration of interstate banking, new banking products and asset
structures, electronic banking, and consolidations. Also, economic conditions can have a
significant effect on the risk profiles of FDIC-insured financial institutions. For instance, an
economic downturn could result in a higher rate of financial institution failures and an increase
in the inventory of assets to be managed and liquidated by the FDIC. An increase in institution
closings and assets to be liquidated could require the OIG to reallocate resources from planned
program area activities to unplanned receivership management activities. Also, the closing of
institutions increases the risk of fraud, which could affect the workload and allocation of
resources for investigative work. Such factors, which are beyond our control, could hinder the
OIG’s ability to achieve its planned goals.

Emerging Technology

Emerging technology has introduced new ways for insured depository institutions to offer
traditional products and services through new delivery channels and, in some instances, has
fostered development of innovative products and services. Examples of new technology include
Internet banking, e-commerce, e-government, and stored-value card systems. Technological
advancements have influenced the operating strategies of many insured depository institutions
                                                27
and other providers of financial services as they seek to compete in the increasingly fast-paced
and globally interdependent environment. With technological advancements, particularly the
increase in electronic banking initiatives, there is increased potential risk that fraud and other
inappropriate activity may occur. A reallocation of OIG resources could be needed to ensure that
such risks are appropriately addressed.

Changes in the Financial Services Industry

Over the past 20 years, unprecedented changes have taken place in the financial services industry
that have significantly changed and shaped the environment in which the FDIC and the other
financial regulatory agencies operate. Deposit interest rates have been deregulated, geographic
restrictions have been eliminated, restrictions on permissible activities and products have been
loosened, and the number of insured commercial banks has decreased dramatically. More major
changes for the financial services industry may be in store in the coming years. In a speech
before the American Bankers Association, Chairman Powell announced that the FDIC would
conduct a major study on the future of banking in America. The study will look at the
underlying trends in the economy and industry and what this suggests for the future, and will
identify emerging policy questions and issues likely to confront both regulators and the industry
over the next decade. Some of these issues may include further industry consolidation, deposit
insurance reform, restructuring the federal banking regulators, combining banking and commerce
activities, the adequacy of corporate governance, and the rapid transfer of customer information
through technology. The OIG will monitor these and other emerging issues as they develop to
ensure they are appropriately addressed through our audits, evaluations, and investigations. This
may require a reallocation of our resources, which could affect the achievement of the goals and
objectives in this plan.




                                               28
Program Evaluations

Program evaluations are defined in the Results Act as “...an assessment, through objective
measurement and systematic analysis, of the manner and extent to which Federal programs
achieve intended objectives.” Program evaluations are designed to provide decision- makers with
information concerning their programs’ performance and results achieved, and should be an
integral part of the strategic and annual planning process. The OIG will rely on several program
evaluation-type mechanisms to assess the extent to which we are meeting our intended objectives
and to evaluate progress in meeting our strategic goals. These mechanisms include the
following:

•   Internal Quality Assurance Reviews - The objective of our internal quality assurance
    program is to determine whether adequate policies and procedures were designed and placed
    in operation (including manage ment controls) to provide reasonable assurance of achieving
    program goals, while fully adhering to professional standards. Quality assurance reviews are
    modeled after and build on the PCIE external peer review methodology. They are designed
    to identify variances in operations and ensure the OIG has established the necessary systems
    to maintain control and accountability. This accountability will ensure work quality and
    information availability for future planning, budgeting, reporting, and performance
    management.

•   External Peer Review - The IG Act and the GAO "Government Auditing Standards" require
    that each OIG audit organization have an appropriate internal quality control system in place
    and undergo an external quality control review every 3 years. The PCIE has issued guidance
    for conducting external peer reviews. The objective of an external quality control review is
    to determine whether the OIG’s internal quality control system is in place and operating
    effectively to provide reasonable assurance that established policies, procedures, and
    applicable auditing standards are being followed. Specifically, the review is intended to
    provide the review team with a reasonable basis for expressing an opinion on whether, for the
    year under review, (1) the OIG’s internal quality control system for its audit work was
    designed in accordance with the PCIE quality standards for audits, Policy Statement on
    Internal Quality Control and External Quality Control Reviews, dated April 1997; and (2)
    the OIG’s quality control policies and procedures were being complied with to provide the
    OIG with reasonable assurance of conforming with Government Auditing Standards.

•   Internal Control Reviews – Under the Corporation’s Internal Control and Risk Management
    Program, the OIG has established accountability units (AUs) that encompass the OIG’s
    major functional and programmatic areas. AU managers rely on internal control systems and
    procedures to manage risk and ensure that the organization's mission is accomplished.
    Internal control reviews (ICRs) of accountability units are designed to determine whether
    adequate internal controls are in place, operating as intended, and accomplishing the control
    objectives. Under the corporate program, AUs are to undergo a risk reassessment annually
    and must also have periodic internal control reviews according to a timetable determined by
    the assessed level of risk for the AU. The minimum frequency of internal control reviews is
    specified as every year for “high” risk AUs, every 2 years for “medium” risk AUs, and every
    4 years for “low” risk AUs. The information gained from performance of ICRs may
    contribute substantially to the objectives of program evaluations.
                                               29
•   Performance Reporting Process – The OIG has implemented a performance reporting
    process that provides an interim assessment of progress towards achieving the goals set forth
    in our annual performance plans. The interim performance reports provide detailed
    information to OIG managers on the current status of their annual performance goals and
    whether they are on target for achieving them. Through the interim performance reports,
    management can review reported data for consistency with performance measures and
    evaluate progress toward meeting our long-term goals and objectives. Information for the
    interim reports will be collected through various sources, including automated information
    systems and customer surveys.




                                                30
                                                                                                          Appendix



             Relationship of Audit and Evaluation Planning by Directorate 2
                    to FDIC and OIG Strategic Goals and Objectives
                             and Management Challenges


 OIG Strategic Objectives         FDIC Strategic Goal                    Management and Performance
  (OIG Strategic Goal 1 –                   or                               Challenges Covered
    Value and Impact)            Resource Management
Insurance, Supervision, and Consumer Affairs Directorate
1.1 The OIG will            I. Insured depositors are              •   Management and Analysis of Risks to the
contribute to ensuring the  protected from loss without                Insurance Funds
protection of insured       recourse to taxpayer funding
depositors from loss
without recourse to
taxpayer funding
1.2 The OIG will            II. FDIC-supervised                    •   Adequacy of Corporate Governance in
contribute to ensuring the  institutions are safe and sound            Insured Depository Institutions
safety and soundness of
FDIC-supervised
institutions
1.3 The OIG will            III. Consumers’ rights are             •   Protection of Consumer Interests
contribute to ensuring      protected and FDIC-supervised
consumers’ rights are       institutions invest in their
protected and FDIC-         communities
supervised institutions
invest in their communities
Resolution, Receivership, and Legal Affairs Directorate
1.4 The OIG will            IV. Recovery to creditors of           •   Effectiveness of Resolution and
contribute to ensuring the  receiverships is achieved                  Receivership Activities
achievement of recovery to
creditors of receiverships
Information Assurance Directorate
1.5 The OIG will            Resource Management:                   •   Management and Security of Information
contribute to ensuring the  Human, financial and                       Technology Resources
effective management of     technological resources                •   Management of Major Projects
agency resources
Resource Management Directorate
1.5 The OIG will            Resource Management:                   •   Security of Critical Infrastructure
contribute to ensuring the  Human, financial and                   •   Assessment of Corporate Performance
effective management of     technological resources                •   Organizational Leadership and Management
agency resources                                                       of Human Capital
                                                                   •   Cost Containment and Procurement
                                                                       Integrity




2
  The Corporate Evaluations Directorate performs corporate-wide reviews and other evaluations that cross-cut
FDIC strategic goals, risks, and management and performance challenges.
                                                       31
